                                                   NATIONAL SCIENCE FOUNDATION
                                                   ·OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A12030022                                                                        Pagel of 1


          Through our proactive review of plagiarism, we discovered a significant amount of copied text in
          an NSF proposal 1 and opened this case. A more detailed review found that the author of the
          source text (the source author) was a collaborator on the proposal? Given the collaboration of
          the source author with the PI on this project, and the fact that no other copied text was discovered
          within the proposal, this case is closed.




         1
             [Redacted]
         2
             [Redacted]




NSF OIG Form 2 (11/02)
